July 19, 2005



MEMORANDUM FOR:           EMILY STOVER DEROCCO
                          Assistant Secretary for
                           Employment and Training




FROM:                     ELLIOT P. LEWIS
                          Assistant Inspector General for Audit


SUBJECT:                  Complaint Involving Adults Mankind Organization,
                          Inc., Miami, Florida.
                          Report No. 04-05-002-03-390


The Office of Inspector General (OIG) audited a complaint made against the
Adults Mankind Organization, Inc. (AMOR), an organization that contracted with
the South Florida Employment and Training Consortium (SFETC) to provide job-
related services to Workforce Investment Act (WIA) participants at the Hialeah
Gardens One-Stop Center in Miami, Florida. The Internal Monitoring Office
(IMO) of South Florida Workforce (SFW) initiated the complaint during a review
of AMOR’s program activities. The complaint alleged that two AMOR employees
made fraudulent and false representations about their educational background,
and raised concerns about the corporate structure because corporate documents
and board minutes made reference to various entities interchangeably.

Based on our audit results, we found that AMOR’s Executive Director
reprimanded both employees and put them on probation for 1 year, requiring
them to complete their college education and obtain their college degrees.
AMOR’s Executive Director terminated the two employees after they failed to
make progress in attaining their college degrees. We also found that AMOR had
adequately addressed these concerns prior to our audit. Therefore, we make no
recommendations. Concerns about AMOR’s corporate structure stemming from
conflicting or poor documentation were warranted. However, AMOR developed a
corrective action plan that was approved by IMO. Accordingly, we make no
recommendations regarding the allegation concerning AMOR’s corporate
structure.
OBJECTIVE, SCOPE, AND METHODOLOGY

The IMO of the South Florida Workforce reported the allegations in an incident
report dated April 4, 2003, addressed to the Regional Administrator of the
Employment and Training Administration (ETA). Our audit objective was to
determine if the allegations against AMOR’s employees making fraudulent and
false representations regarding their educational background could be
substantiated, and if concerns about AMOR’s corporate structure were warranted
because corporate documents and board minutes made reference to various
entities interchangeably.

Our audit covered the contract period of November 1, 2002, through
June 30, 2003. We examined the contracts between SFETC and AMOR, and
IMO’s monitoring report and its supporting working papers, including responses
to IMO’s monitoring report findings to fulfill our audit objectives. We discussed
the complaint with the IMO Director and with AMOR’s Executive Director to
obtain a better understanding of the allegations. We also reviewed AMOR’s
personnel files to support IMO’s findings and its resolution. We reviewed
AMOR’s two most recent Single Audit reports, covering fiscal years ended
December 31, 2001, and December 31, 2002, for information that might impact
our audit of the complaint. Fieldwork was conducted in Miami, Florida, at SFETC
and AMOR during the period March 25, 2004, through September 23, 2004.

Our testing of internal controls focused only on those controls related to our audit
objective of determining whether the allegations could be substantiated, and
were not intended to form an opinion on the adequacy of management controls
overall, and we do not render such an opinion. Our audit was performed in
accordance with Generally Accepted Government Auditing Standards (GAGAS).

RESULTS

Allegation 1. Fraudulent and False Representations of Educational
Background

We substantiated the allegations in the complaint that two employees made
fraudulent and false representations regarding their educational background.

In the first instance, the complaint alleged that the AMOR Project Director
provided a fraudulent college degree. According to SFETC’s Program Directives,
the Project Director position requires a Bachelor’s Degree in Accounting and
preferably formal course work in Finance.

During a review of AMOR’s program activities, the IMO monitors determined that
the Project Director’s personnel file did not have evidence of a degree. AMOR’s
Project Director provided the monitors with a copy of a Bachelor of Science in



                                        - 2-
Business Administration - Accounting degree. However, the IMO noted that in
previous bid proposals and contracts, the Project Director indicated having a
Bachelor of Science in Business Administration - Management degree.
Furthermore, the IMO noted the calligraphy of the diploma was of poor quality
and the graduation date was suspicious. This led the IMO monitors to contact
the College Registrar at Florida Memorial College where the Accounting degree
was reportedly earned and determine that the degree was a fraud.

The second instance alleged that the Director at the Hialeah One-Stop Center
falsified her educational background in her resume when she was promoted to
the position of One-Stop Center Director and in subsequent bid proposals.
Specifically, the One-Stop Center Director represented to SFETC that she held a
Bachelor’s and Master’s degree from Barry University, Miami, Florida. According
to the educational requirements in the contract, the Center Manager (same as
Center Director) position requires:

      . . . at least a bachelor’s degree in business of public administration
      or a related field and at least two years experience managing
      similar organizations.

The IMO monitors noted that the One-Stop Center Director’s resumes on file with
AMOR fluctuated between having and not having the Master’s degree, and
between having a Bachelor’s and an Associate’s degree. The One-Stop Center
Director subsequently admitted to IMO monitors that she did not have either a
Bachelor’s or Master’s degree.

IMO monitors notified SFETC officials and AMOR’s Executive Director of their
finding. In response, AMOR’s Executive Director reprimanded and placed on
probation for a period of not less than 1 year both the AMOR’s Project Director
and the One-Stop Center Director. Additionally, AMOR Project Director and
One-Stop Center Director were required to obtain their college degrees. When
AMOR’s Project Director and the One-Stop Center Director failed to make
progress towards attaining their college degrees, AMOR’s Executive Director
terminated both employees effective May 9, 2003, and June 18, 2003,
respectively.

According to the IMO Director, IMO audit department performed a personnel
review of all One Stop and Youth Opportunity Center provider staff. This
involved verifying their educational background as established by SFW policy.
The review did not indicate other instances of falsified educational documents.
Also, quarterly staffing reports of One Stop providers are monitored in order to
determine if any additional review is needed of new staff.

We conclude the allegations were substantiated. However, since the two
employees have been dismissed and a monitoring procedure is in place, we
make no recommendation.



                                        - 3-
Allegation 2. Concerns About AMOR’s Corporate Structure

The complaint raised concerns about AMOR’s corporate structure because
documents and Board minutes made reference to various entities
interchangeably. IMO monitors identified three corporations during their review.
These three corporations were:

      1. Adults Mankind Organization, Inc. - AMOR
            (Adult Mankind Organization, Inc. - AMO)
            (Adults Mankind Organization – Programs, Inc.)
      2. Adult Mankind Organization – Educational Division Inc.
      3. Adult Mankind Employment and Training Corporation

AMOR was referred to by different names on various documents and the
contracts between AMOR and SFETC. IMO monitors also noted the
inconsistency in AMOR’s legal name as it appeared in the certificate of
incorporation (Adults Mankind Organization, Inc. - AMOR) and the entity’s name
in the contract (Adult Mankind Organization, Inc. - AMO) with SFETC. An IMO
monitor’s report, dated April 21, 2003, stated:

       . . . this created a great deal of confusion due to conflicting or poor
      documentation concerning the various entities.

In a letter dated April 8, 2003, AMOR officials addressed the issue of AMOR’s
corporate structure and explained that “Adults Mankind Organization, Inc.,” is the
official corporate name of the organization and is the same as Adult Mankind
Organization, Inc. – AMO. With regard to the other two corporations, AMOR
officials stated that the corporation, named, Adult Mankind Organization –
Educational Division Inc., was incorporated in 1997 to administer and operate
schools, and had no involvement/negotiated contracts with the SFETC; and the
corporation named Adult Mankind Employment and Training was considered
“Inactive.”

Regarding other documents and board minutes, AMOR’s Executive Director
stated that he advised AMOR’s Board members that the minutes must reflect the
organization‘s official name, AMOR. On May 1, 2003, SFETC amended the
original contract and changed AMOR’s name to reflect the name according to the
certificate of incorporation.

On July 24, 2003, after reviewing AMOR’s response to the monitoring report, the
IMO Director approved AMOR’s corrective action plan, and determined that there
were no outstanding issues.




                                         - 4-
Although the allegation was substantiated, concerns about AMOR’s corporate
structure were addressed by a corrective action plan. Therefore, we are making
no recommendations.

We provided a draft of this report to the Florida Agency for Workforce Innovations
and a courtesy copy to the Florida Inspector General. Neither agency responded
to the draft report. Since this report does not contain any recommendations, no
response is required.




                                       - 5-
